No. 20-559

 

 

IN THE
Supreme Court of the Anited States

JANE DOE,

Petitioner,
Vv.

UNITED STATES,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,973 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 19, 2021.

 

Wilson-Epes Printing Co., Inc.
